<html>
<title> - [H.A.S.C. No. 113-73] FUTURE RECRUITING CHALLENGES IN THE FISCALLY CONSTRAINED ENVIRONMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-73] 
                      FUTURE RECRUITING CHALLENGES 
                IN THE FISCALLY CONSTRAINED ENVIRONMENT

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 16, 2014

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-963                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8afb8a788abbdbbbca0ada4b8e6aba7a5e6">[email&#160;protected]</a>  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                           Colin Bosse, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, January 16, 2014, Future Recruiting Challenges in the 
  Fiscally Constrained Environment...............................     1

Appendix:

Thursday, January 16, 2014.......................................    27
                              ----------                              

                       THURSDAY, JANUARY 16, 2014
  FUTURE RECRUITING CHALLENGES IN THE FISCALLY CONSTRAINED ENVIRONMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Andrews, RDML Annie B., USN, Commander, Navy Recruiting Command, 
  U.S. Navy......................................................     7
Brilakis, MajGen Mark A., USMC, Commanding General, Marine Corps 
  Recruiting Command, U.S. Marine Corps..........................     6
Grosso, Brig Gen Gina M., USAF, Director, Force Management 
  Policy, U.S. Air Force.........................................     8
Penrod, Virginia S. ``Vee,'' Deputy Assistant Secretary of 
  Defense for Military Personnel Policy, Department of Defense...     3
Seamands, MG Thomas C., USA, Director of Military Personnel 
  Management, U.S. Army..........................................     4

                                APPENDIX

Prepared Statements:

    Andrews, RDML Annie B........................................    57
    Brilakis, MajGen Mark A......................................    49
    Grosso, Brig Gen Gina M......................................    69
    Penrod, Virginia S. ``Vee''..................................    33
    Seamands, MG Thomas C........................................    41
    Wilson, Hon. Joe.............................................    31

Documents Submitted for the Record:

    Letter from LTC (Ret.) Margaret Stock to Mr. Coffman 
      supporting H.R. 435, The Military Enlistment Opportunity 
      Act........................................................    81

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................   109
    Mr. Scott....................................................   107
    Ms. Tsongas..................................................   107

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  FUTURE RECRUITING CHALLENGES IN THE FISCALLY CONSTRAINED ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                        Washington, DC, Thursday, January 16, 2014.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, the hearing will come to 
order.
    I would like to welcome everyone to a meeting of the House 
Armed Services Subcommittee on Military Personnel.
    Even before we begin, there is someone who is not here. The 
late John Chapla, who was one of our lead personnel, and just a 
real champion for our military service members, military 
families, and veterans. And I am just so grateful that all of 
us--yesterday, we had a tribute to John. And it was a real 
tribute to a person who has made a difference on behalf of our 
military. And, in particular, I am very grateful, as I became 
chairman of this subcommittee, succeeding now-Secretary of the 
Army, John McHugh. Wow. It was huge shoes to fill, except that 
John Chapla was there. And so, he was an extraordinary person.
    Additionally, he had a great talent in recruiting 
professional staff to work with him, with Jeanette James and 
Craig Greene. And just, so appreciative--David Giachetti and 
Colin Bosse. So, we have got good people. And then yesterday, 
too--and many of you were there--but what a tribute for his 
wife, Leah--to know how much people appreciate, and also, his 
daughters, Maren and Marie.
    So, as we begin today, we truly are working on issues that, 
indeed, were established by John Chapla.
    Today, the subcommittee will examine the future recruiting 
challenges in a fiscally constrained environment, as well as 
discuss whether or not there is a need to expand the eligible 
population available for service in the military.
    Historically, after major conflict or war, the military 
goes through a period of reduction and change to include 
smaller budgets. The next several years will be no different, 
except the Budget Control Act of 2011 will have a greater 
impact on budget reductions.
    The committee has heard from the Department of Defense and 
the military services over the past year on the impacts of 
military sequestration on end strength, readiness, and 
procurement. But equally important is the impact on the ability 
to recruit an All-Volunteer Force.
    Regardless of the size of the military, it must still be 
able to attract eligible and qualified individuals to serve. 
With the percentage of eligible youth between the age of 17 and 
24 shrinking, it will remain a challenge for the services to 
recruit the best and brightest qualified candidates. I 
personally believe service in the military creates opportunity. 
And as many people as possible should have that opportunity to 
serve, as long as they meet the required qualifications. I 
myself cherished the opportunities it has provided to me and my 
family, all credit to my wife. And so, four sons serving today, 
thanks to efforts that all of you have made.
    I would like to welcome our distinguished witnesses.
    Ms. Vee Penrod, the Deputy Assistant Secretary of Defense 
for Military Personnel Policy.
    Major General Thomas Seamands, Director of Military 
Personnel Management, U.S. Army.
    Major General Mark A. Brilakis, the Commanding General of 
Recruiting Command, U.S. Marine Corps.
    Rear Admiral Annie B. Andrews, Commander, Navy Recruiting 
Command, U.S. Navy.
    Brigadier General Gina Grosso, Director of Force Management 
Policy, U.S. Air Force.
    Mrs. Davis, Ranking Member, do you have any opening 
remarks?
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Yes, thank you, Mr. Chairman. And I certainly 
want to acknowledge with you the many, many contributions in 
the service to this committee, and through this committee to 
the men and women who serve, and particularly, their families, 
as well. It was heartwarming to see the response and all the 
eulogies, all the wonderful things that people had to say. And 
I know the family appreciated that.
    Today's hearing on future recruiting challenges in a 
fiscally constrained environment is certainly timely. And I am 
pleased that we are starting early with these hearings, given 
the recent news that unemployment rates have recently fallen 
below 7 percent, and the first since 2008. That said, we know 
that we still want to see our economy improve, but we know that 
it has an impact, as well, on the services.
    Recruiting and retention efforts of the services are a 
complex issue that needs to be continuously overseen and 
properly managed in order for the services to achieve our All-
Volunteer Force.
    And the economy, the propensity to serve, the support of 
influencers, patriotism, the ability to serve are just a few of 
the factors that impact recruiting and retention.
    The passage of the Budget Control Act and sequestration has 
had an impact on the services, clearly. And although there is a 
budget agreement for the next 2 years that will provide some 
stability, available resources will significantly diminish over 
the next several years. And so, attracting and retaining 
qualified candidates to serve in the Armed Forces will continue 
to place demands on limited resources.
    The decisions that the services and the Department make 
today will have years of repercussions. So, it is important 
that we understand where the services are in their recruitment 
and retention efforts, what efforts they are taking to meet 
their goals in these very uncertain fiscal challenges to ensure 
that they are bringing together, that we are finding, and that 
we are retaining the right people with the right skills, 
education, and experience for the right jobs.
    So, thank you, Mr. Chairman.
    I look forward to hearing from all of our witnesses. And 
thank you all so much for the contributions that you all make. 
Thank you.
    Mr. Wilson. Thank you, Mrs. Davis.
    I now ask unanimous consent that Congressman Mike Coffman 
from Colorado and Congressman Jeff Denham from California be 
allowed to participate and ask questions after all members of 
the subcommittee have had the opportunity to question the 
witnesses.
    Without objection, so ordered.
    Ms. Penrod, we will begin with your testimony. As a 
reminder, please keep your statements to 3 minutes.
    We have your written statements for the record. Following 
your testimony, each subcommittee member will participate with 
questions in rounds of 5 minutes each until adjournment.

   STATEMENT OF VIRGINIA S. ``VEE'' PENROD, DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR MILITARY PERSONNEL POLICY, DEPARTMENT 
                           OF DEFENSE

    Ms. Penrod. Thank you.
    Chairman Wilson, Ranking Member Davis, and distinguished 
members of the subcommittee, thank you for the opportunity to 
provide testimony today.
    The All-Volunteer Force continues to perform remarkably 
well as it enters its fifth decade. It continues to be the 
strongest and most well-respected military force in the world.
    Our new recruit quality is at an all-time high, and in 
almost every category, we continue to achieve the numbers of 
volunteers required to sustain this professional force.
    We know the continued success of our All-Volunteer Force 
begins with recruiting the best and the brightest of America's 
youth. These young men and women are diverse and are 
representative of our society.
    We rely on and appreciate the continued support of the 
Congress, which has contributed greatly to our ability to meet 
our recruiting and retention goals, especially in our more 
challenging times.
    Despite our recent recruiting success, the process has 
inherent challenges. The size of our youth market is finite. 
Today, nearly 75 percent of our youth are not qualified for 
military service. There are a number of reasons for this, but 
the main reason among them is health and fitness issues.
    In addition, since 2004, the percent of youths who 
associate military service with an attractive lifestyle is down 
approximately 20 percent.
    We also know that our recruiting efforts are often shaped 
by the health of the economy and world events.
    The last couple of years of relatively high youth 
unemployment has been a driver for more people to consider 
military service.
    As the economy improves, however, we expect youth interest 
in military service as an employment option to decline.
    To expand the recruiting market, the Department has long 
supported the enlistment of non-citizens, to the extent 
permitted by law, subject to these individuals being otherwise 
qualified for service in the United States Armed Forces.
    The Department of Defense is conducting a comprehensive 
review of immigration issues as they relate to service in the 
Armed Forces.
    Upon completion of the review, we will share the results 
with you.
    Fiscal realities also impact recruiting, requiring the 
services to continuously adjust recruiting programs 
accordingly. The Department will pay close attention to these 
adjustments.
    To overcome potential challenges that may lie ahead, we 
must ensure our recruiters are trained and the appropriate 
recruiting resources are available to meet these challenges.
    I will leave it to my colleagues to address the efforts 
they have taken in the respective services.
    Mr. Chairman, in conclusion, I want to thank you and the 
members of the subcommittee for your advocacy on behalf of the 
men and women of the Department of Defense.
    In particular, I would like to take the opportunity to 
publicly thank and recognize the significant contributions of 
John Chapla to the Department of Defense, and I offer my 
sincere condolences on his passing.
    I look forward to your questions.
    [The prepared statement of Ms. Penrod can be found in the 
Appendix on page 33.]
    Mr. Wilson. Thank you very much, Ms. Penrod
    General Seamands.

 STATEMENT OF MG THOMAS C. SEAMANDS, USA, DIRECTOR OF MILITARY 
                PERSONNEL MANAGEMENT, U.S. ARMY

    General Seamands. Chairman Wilson, Ranking Member Davis, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear today on behalf of America's Army.
    I would like to echo the comments already made about John 
Chapla. John was an Army veteran, a friend, and he always 
reminded us, at the end of every legislation, every action, was 
a soldier and their family.
    I appreciate your steadfast commitment to ensure the needs 
of the All-Volunteer Force are met. Through your support we are 
able to balance needs of our soldiers, their families, and our 
civilian workforce.
    Our Army is now made up of the highest quality, best 
trained, most experienced, and highest skilled soldiers ever. 
Our ability to meet the challenges of the current and the 
future operational environment depends on our ability to 
recruit great citizens and retain great soldiers.
    As we go through the drawdown, though the recruiting 
missions will be lower, we will continue to bring in high-
quality men and women into the force to grow future leaders.
    In fiscal year 2013, the Active Army met its recruiting 
mission. The Army National Guard and Army Reserve fell short of 
their fiscal year 2013 mission, primarily due to the need to 
recruit to specific geographic areas.
    We must retain the most talented soldiers with the 
experience and skills necessary to meet our future needs.
    Despite the challenges of the ongoing conflict, future 
drawdown plans, and the budgetary constraints, the Active and 
Reserve once again exceeded their enlistment retention missions 
for fiscal year 2013.
    The National Guard achieved 86 percent of its assigned 
mission. The total Army percentage newly enlisted soldiers with 
a high school diploma was 98 percent, well above historic 
rates.
    Additionally, the Army achieved 99 percent for each of its 
military occupational specialties. However, recruiting is 
expected to become increasingly more difficult due to tough 
recruiting environment and the impacts of the budget.
    These will likely cause a decline in the entry pool.
    The continued support of Congress for competitive military 
benefits and compensation, incentive bonuses for our soldiers, 
and marketing to help us tell our story will remain critical to 
the All-Volunteer Army's effort to recruit, retain, and support 
the highest caliber soldier.
    While we transformed to a smaller Army, we remain dedicated 
to improving readiness and building resilience in our soldiers, 
civilians, and families. The well-being of our force, 
regardless of the size, is absolutely dependent upon your 
tremendous support.
    The Army is proud of the high caliber men and women whose 
willingness to serve is a credit to our Nation.
    Chairman Wilson, Ranking Member Davis, and members of the 
subcommittee, we thank you again for your generous and 
unwavering support of our outstanding soldiers, civilian 
professionals, and family.
    Army strong.
    [The prepared statement of General Seamands can be found in 
the Appendix on page 41.]
    Mr. Wilson. Thank you, General, and thank you, too, for 
referencing John Chapla. He was such a proud Army veteran, 
Vietnam veteran. He, I believe, fulfilled his commitment as a 
Virginia Military Institute gentleman, serving God and country.
    Thank you very much.
    And General Brilakis.

    STATEMENT OF MAJ GEN MARK A. BRILAKIS, USMC, COMMANDING 
  GENERAL, MARINE CORPS RECRUITING COMMAND, U.S. MARINE CORPS

    General Brilakis. Brilakis, sir, thank you very much.
    Good morning, Chairman Wilson, Ranking Member Davis, and 
distinguished members of the subcommittee. Thank you for your 
continuously strong support for your Nation's military forces 
and our recruiting efforts.
    I am pleased to appear before you today, to answer 
questions about the state of Marine Corp recruiting.
    And before I go on, on behalf of the men and women of the 
United States Marine Corps, I would like to echo Ms. Penrod's 
sentiments with respect to Mr. John Chapla and his passing, and 
recognize his long service, both to the committee and to the 
Nation.
    The Marine Corps remains faithful to our responsibility to 
you and to the American public to recruit quality people who 
meet the standards that we expect of marines.
    We also remain committed to our process of transforming our 
youths into marines, winning our country's battles and 
returning quality citizens back to their communities, citizens, 
who, once transformed, will be marines for life.
    As our Commandant has recently stated to the full 
committee, the corps has been a people-intense force for more 
than 238 years. The individual marine is the bedrock of our 
corps.
    The Marine Corps has succeeded for more than four decades 
to attract superb young men and women from all of America's 
communities. However, today's recruiting force continues to 
face many challenges. Our recruiters work long hours to find 
eligible and physically qualified candidates, with the ambition 
or propensity to serve their country.
    Additionally, our recruiters find they must invest 
considerable time with parents, teachers, guidance counselors, 
and others who influence today's youth as they consider their 
post-high school opportunities.
    During the past fiscal year, the Marine Corps achieved its 
recruiting objectives in both quality and quantity. There was 
also continued progress with recruiting applicants from a wide 
and diverse background, across all the States and territories.
    This was the result of the hard work performed by those 
marines assigned to the recruiting duty and committed to 
accomplishing that mission.
    I attribute the success we achieved this past year to the 
strong, positive image our corps enjoys with the American 
people, and to a quality recruiting force, one that is staffed, 
screened, well-trained, and properly resourced to meet mission 
requirements.
    We are currently meeting our objectives for both enlisted 
and officer recruiting in fiscal year 2014. And while 
recruiting is beset with uncertainties, we anticipate that we 
will achieve our assigned mission in this current year.
    Thank you again for this opportunity to appear before you. 
We will continue to work hard to find and recruit quality 
volunteers to ensure the Marine Corps remains ready to defend 
our country today and tomorrow, wherever and whatever the 
mission might be.
    Mr. Chairman, on a personal note, I would like to thank you 
and your family for their service to our country. Thank you, 
and I am prepared to answer your questions.
    [The prepared statement of General Brilakis can be found in 
the Appendix on page 49.]
    Mr. Wilson. General Brilakis, thank you very much for your 
testimony.
    Admiral Andrews.

   STATEMENT OF RDML ANNIE B. ANDREWS, USN, COMMANDER, NAVY 
                 RECRUITING COMMAND, U.S. NAVY

    Admiral Andrews. Chairman Wilson, Ranking Member Davis, and 
distinguished members of the committee, thank you for holding 
this important hearing and for the opportunity to discuss the 
challenges facing Navy recruiting in a fiscally constrained 
environment.
    On behalf of our Navy family, I would like to echo Ms. 
Penrod's expression of sympathy to Mr. Chapla's family, 
friends, and colleagues.
    Navy continues to work hard to attract the best and 
brightest to serve in the United States Navy. Last year, and so 
far this year, we have achieved all Active Component officer 
accession goals and all Active and Reserve enlisted accession 
goals.
    In general, the pace of economic growth, coupled with high 
unemployment, has contributed to a favorable recruiting market, 
permitting a proportional reduction in recruiting resources.
    As the economy continues to improve and the recruiting 
environment becomes more challenging, we must continue to 
adequately source recruiting efforts to continue meeting 
accession goals.
    As long as Navy recruiting is funded, consistent with the 
President's budget request, I am confident that we will not 
experience any insurmountable difficulties in marketing and 
advertising, sustain recruiter training and high-quality 
recruiting force, or meeting accession requirements for high-
demands, low-density rating.
    As private sector career opportunities increase, use of 
incentives such as enlistment bonuses will help attract 
recruits with the characteristics necessary for Navy service, 
as means of getting the right sailor with the right skills to 
the right place at the right time.
    Additionally, effective marketing and advertising is a 
force multiplier, crucial to lead generation and accession of 
the right sailor. In fiscal year 2012, Navy obtained the 
highest historical recruit, with quality of 99 percent of 
accessions entering as high school diploma graduates.
    Last year saw a slight decline in recruit quality, which, 
while still well above DOD [Department of Defense] and Navy 
standards, bear watching for leading indicators. We remain 
committed to sustaining recruit quality as a means of 
maintaining our technological edge. We are America's Navy.
    We will continue to recruit the best and most qualified 
youths in the Nation to meet current and emerging requirements 
while tackling the challenges of an increasingly competitive 
marketplace and an improving economy.
    On behalf of Navy leadership, the men and women of the 
United States Navy and their families, I thank you for your 
commitment and unwavering support. I look forward to your 
questions.
    [The prepared statement of Admiral Andrews can be found in 
the Appendix on page 57.]
    Mr. Wilson. Thank you very much, Admiral Andrews. General 
Grosso.

  STATEMENT OF BRIG GEN GINA M. GROSSO, USAF, DIRECTOR, FORCE 
               MANAGEMENT POLICY, U.S. AIR FORCE

    General Grosso. Chairman Wilson, Ranking Member Davis, 
distinguished members of the committee. It is my honor to 
testify before you today representing all airmen serving in the 
United States Air Force.
    I would like to echo my colleagues' condolences on the 
passing of Mr. John Chapla. We offer our deepest sympathies to 
his family and friends during this difficult time and would 
like to recognize his tremendous service to our Nation.
    A strong recruiting program is vital to the Air Force's 
ability to provide airspace and cyberspace power to the Nation. 
A weak economy in recent years, coupled with the talented and 
adequately resourced recruiting force, produced the highest 
quality recruits in Air Force history.
    However, we recognize this trend will be unsustainable as 
the economy continues to improve and competition to draw 
recruits from the small, qualified talent pool, who are 
alarmingly less inclined to choose military service as a 
career, increases dramatically.
    With this in mind, we must remain focused on recruiting, 
assessing, and retaining qualified and motivated airmen to meet 
today's and tomorrow's security challenges.
    This will require continued investment in our recruiting 
forces with a focus on maintaining a right-sized and 
appropriately trained recruiting force.
    It will also require a sustained and robust advertising and 
marketing campaign to support our recruiters' efforts to assess 
hard-to-reach markets and effectively sway youth towards 
military service.
    And finally, it will require an adequate initial enlistment 
bonus program, which has demonstrated a strong return on 
investment by inducing non-propensed recruits to volunteer for 
our most hard-to-fill specialties.
    In spite of recent budget reductions, we will continue to 
strongly advocate for recruiting resources needed to ensure we 
do not miss annual recruiting requirements. Thank you for your 
interest in the Air Force's recruiting program. I look forward 
to your questions.
    [The prepared statement of General Grosso can be found in 
the Appendix on page 69.]
    Mr. Wilson. Thank you very much, General.
    And now that I will proceed into the 5-minute rounds and we 
will have a person above reproach, Craig Greene, to maintain 
the 5-minute rule, including on me. And so that we can get to 
everyone here.
    As we begin again, I indicate in my opening statement that 
what I see you doing is obviously protecting our country, our 
freedoms, our liberty, civil order, but you are providing 
opportunity.
    And our families lived it. My dad was in the 14th Air Force 
Flying Tigers. That was the highlight of his life. And I am 
very grateful to have a nephew in the Air Force.
    And then the Navy--I grew up in the extraordinary city of 
Charleston, South Carolina, the Navy base. I was a sea cadet. I 
am very grateful to have a son who is in the Navy.
    The Marine Corps, General Brilakis, I will always cherish--
I represent Parris Island. And to see the positive 
transformation of young people, it was extraordinary to see 
these young people speaking to their family members, trying to 
explain--it is me. And there was an extraordinary physical and 
presence change that truly was extraordinary and very 
uplifting.
    And then, General, I am very grateful to have three sons in 
the Army, currently, and I have the privilege of seeing what 
you do.
    And that is, as I fly into Columbia Airport, which I will 
do later today, there will be young people there with brown 
envelopes and manila envelopes. I know why they are there.
    The Columbia midlands community greets them as royalty with 
the USO [United Service Organization] right there. First thing 
they do, and then the drill instructors get them back on the 
bus.
    But thank you for providing opportunity and safety. In the 
past the services have reduced the number of recruiters to cut 
cost and try to use other tools to mitigate the impact, such as 
social media, technology, and putting civilians in recruiting 
offices.
    For each of our military witnesses, and beginning with 
General Seamands and we will go right, I am concerned that 
history will repeat itself again. And the services will reduce 
the number of recruiters based on the budget and not mission 
requirements.
    As some of you have stated in your testimony, recruiters 
are working 60-hour weeks with the stress of the job impacting 
their mental health and family life.
    What are each of you doing to ensure that you have enough 
recruiters to meet your missions?
    General Seamands. General Wilson, thank you for the 
question.
    What the Army is doing is taking a long-term view of the 
issue. If you look at our accessions mission for 2014, there 
was a reduction from 2013. What we opted to do is leave the 
recruiting force into the communities.
    We feel that what recruiters do and so much of what you and 
I do every day is built on trust. And you need to keep the 
recruiters in the high schools, in the communities, in the 
cities, to have that relationship and that trust.
    So we have maintained roughly the same level of support 
despite a reduced mission out in the recruiting force.
    General Brilakis. Mr. Chairman, thanks for the question.
    In 2012, after a lot of research and work was done, we 
determined the current size of recruiting force is adequate to 
meet our requirements now into the future, and the Commandant 
approved 3,760 recruiters in support of that active mission.
    He has also directed that that number be filled at 100 
percent. You are well aware that, across the board, there are 
certain units that get their full complement and some that get 
a little bit less depending upon the availability of manpower.
    Ours are being filled at 100 percent which allows us to put 
marines across the globe, across the country, and in some of 
the territories. So we are actively recruiting across every 
aspect of our Nation.
    On the resource side, with respect to dollars, we have 
been--we did take a reduction with respect to our advertising 
and recruiter operations dollars given the scope and the size 
of the sequestration reduction that was coming in 2014.
    However, we have taken a hard look at that. We have made 
economies. And we feel very comfortable where we are at, 
understanding that in the future there will be a challenge with 
some of the adjustments we have been made.
    And so we are looking at that very closely to determine 
exactly where we will have to go back to leadership and ask for 
a little bit more to make sure that we are in a good position 
to take advantage of whichever way the demographics go.
    Mr. Wilson. Thank you.
    Admiral Andrews. Mr. Chairman, for the Navy, the recruiting 
budget for this year's accession is favorable. We concern 
ourselves as well as far as making sure that we have all the 
recruiters dispersed across the Nation giving them time for 
their families.
    For the number of accessions that we have for this year, we 
are very comfortable. We concern ourselves within the coming 
years if those numbers and accession numbers go up that we want 
to make sure that we have all the right recruiters out there in 
all the places making sure that they remain ambassadors for the 
Navy, going into schools, into communities, and being there and 
spending their time with their families. Thank you, sir.
    Mr. Wilson. Thank you.
    General Grosso. Mr. Chairman, our recruiting force is sized 
by the number of accessions that we have and has come down 
slightly as the force has gotten smaller. We have no plans to 
reduce recruiters further and we, too, like the Marine Corps, 
have changed our assignment policy such that all of our 
positions will be filled.
    Mr. Wilson. And that is very encouraging. And, as I 
conclude, I also want to commend you working with JROTC/ROTC 
[Junior Reserve Officers' Training Corps/Reserve Officers' 
Training Corps] units.
    As a product of ROTC myself and as I travel through the 
district I represent, educators are just so pleased with what 
JROTC means to the school, the spirit of the school. It just 
has such a positive impact. But, also, certainly can introduce 
young people to the benefits of military service.
    So I want to thank you all for work with the--particularly 
the JROTC units.
    And, now, we shall turn to Congresswoman Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I wonder if you could just highlight a major challenge 
or two. One of them that we were aware of over the past decade, 
of course, is medical professionals, mental health providers, a 
whole group of individuals who are vastly needed throughout the 
country, more so in rural areas, small towns, as opposed to big 
cities perhaps, but we know that that is a real need.
    So if you could include that among other highlights of, you 
know, particular challenges.
    I think that you also both, I think, General Grosso and 
Admiral Andrews, that there has been some decline in quality 
that you suggested and we know from the reports too that 
students of--have more high academic scores are less inclined 
perhaps now. So if you could help us out with those issues that 
would be very helpful.
    Ms. Penrod, do you want to speak to that or we will just 
let the services or--go ahead.
    Ms. Penrod. I will defer to the services----
    Mrs. Davis. Okay, thank you.
    Ms. Penrod [continuing]. On their particular programs.
    Mrs. Davis. General Seamands.
    General Seamands. Ma'am, I think one of the indications, 
and you asked about major challenges, as we look at our delayed 
entry pool, we see that decreasing. We see that as kind of a 
canary in the coal mine in terms of warning about a tough 
environment ahead. If you were to go back in time about a year 
ago, we would have had almost half our mission in the delayed 
entry program. If you look at it now, it is about a third so it 
is going down which is one of the things we are looking at.
    In terms across the board, we do fairly well with our 
medical professionals coming in. One of the challenges we have 
is the cyber piece as we train for the Army cyber force making 
sure we have the right soldiers with the right skill set in 
that area.
    Mrs. Davis. Yes. Thank you.
    General.
    General Brilakis. Ma'am, as I take a look at resources and 
one of the questions--you asked about rural recruiting. There 
is always a challenge. There is time involved.
    I was just up in Buffalo at the beginning of the week and 
outside of Buffalo, dairy country, a lot of small high schools, 
a lot of time required to get to a small high school with 25 to 
50 graduates, to get allowed into that school and have that 
dialogue with those students.
    You know, the toughest thing that we deal with probably 
right now, resource-wise, that nobody can help me with, is 
time. There is never enough time.
    But we are making the effort and we have people across the 
country and we are in every market and we are actively 
recruiting in those small schools because it is important to 
the Commandant to have representation across our Nation in the 
Marine Corps.
    On the quality issue that you talked about, our quality is 
as high as it has ever been. The young men and women we are 
assessing are exceptional. They are dedicated, they are bright 
and they are doing really hard things very, very well.
    I think part of the challenge that has been identified is 
the number of those individuals is dropping a little bit, but, 
more importantly, the propensity of those individuals is going 
down.
    And so while there might be a good, sustainable population, 
their propensity is getting smaller and so there is a smaller 
number.
    Mrs. Davis. Yes.
    General Brilakis. You know, the 30-some million 17- to 24-
year-olds that we have out there, by the time you get all the 
way down to those that are qualified and propensed, you are 
down to less than a million young Americans, which means we 
have to work--that is an area we like to work in.
    But we also have work in that qualified not necessarily 
propensed. How do we get in and show them the value of service? 
And so that is one of the things that's very difficult for us 
right now and we are continuing to work that.
    And the last thing I would talk about are concerns for me 
are dollars. Just with respect that we all understand that a 
decision we make today in the recruiting effort, whether it be 
manpower or in dollars, can boomerang very badly a year or two 
from now.
    The lagging indicators are the things that are probably the 
toughest to indicate and as the employment numbers start to get 
better, and we are all happy about that, those challenges are 
out there.
    Mrs. Davis. Thank you.
    Admiral Andrews. For managing time, the recruiters spend a 
lot of time making sure that they are out there in those 
schools and places and being visible. Along with their time, 
they are doing a lot of mentoring, they are training, they are 
in schools, they are talking with parents, and they are doing 
administrative work.
    For quality, we have seen quality high and we have the 
luxury of that for the last couple of years, but we are also 
looking to make sure that we can keep that quality.
    While the ASVAB [Armed Services Vocational Aptitude 
Battery] scores have been high for those that we are accepting, 
our concern would be when quality change and look at those 
trends as the economy improves. And we will know that by 
looking at time it takes to get recruiters in, time it takes to 
get them at least accepted into the Navy.
    As far as medical, for the Reserve, we have had our 
challenges for getting those medical and that was due to, one, 
high retention within the Active Duty, not going into the 
Reserve, and the others because of the medical practice, some 
are concerned with losing their own private practices and also 
concern about long deployment.
    The concern I have is with the--making sure we have dollars 
so we continue to be out there to advertise. It takes a long 
time for--if we lose our sight out there in the community to 
gain that again. So keeping those dollars for advertising and 
making sure we are where we need to be where it matters so we 
can get there.
    General Grosso. Ma'am, our major challenge is promoting 
airmen that work typically with the Army and the special ops 
forces. We call them battlefield airmen. We don't have big 
recruiting numbers, but that is exactly where we target our 
initial enlistment bonus. And we have found that to be very 
effective and we have not seen a drop-off in quality yet.
    In fiscal year 2013, we finished the year with 98 percent 
of the force at 50 percent or above in the percentile. And 
right now the young folks we have in our delayed enlistment 
program are at 97 percent. So we haven't seen a drop-off yet.
    Mr. Wilson. Thank you, Mrs. Davis.
    And we now proceed to the newly named--just-named chairman 
of the Oversight and Investigation Committee, Congressman Dr. 
Joe Heck.
    Dr. Heck. Thank you, Mr. Chairman. Thank you all for being 
here and thank you for what you are doing in trying to make 
sure that we are able to maintain the All-Volunteer Force.
    Ms. Penrod, I am going to direct my questions to you 
because I think they are kind of overarching across all the 
services. The first one is that in a time of decreasing 
resources, I think we see every time the NDAA [National Defense 
Authorization Act] or a defense appropriations bill comes to 
the floor there are amendments offered to try to micromanage 
recruiting budgets, what you can and can't spend your money on.
    Can you briefly tell me what the impact of that is by 
saying let's say you can't sponsor NASCAR, you know, based on 
what you think as a service are the best use of your dollars?
    Ms. Penrod. Yes, Dr. Heck. We believe that the services are 
really in the best position to determine how to spend 
recruiting dollars. They understand their force. They know 
their requirements. They understand the culture.
    When the services are directed or not directed to spend 
recruiting dollars, it is, we believe, a misdirection of funds. 
So we absolutely believe the decisions should be left to the 
services, and we provide oversight to ensure that they follow 
policy and law.
    Dr. Heck. Thanks for allowing that to get on the record. 
Second question. Even though--and the chairman mentioned the 
impact of JROTC units, and I try to get to visit all of the 
JRTOC units that are in my district. And knowing that the 
mission is really to build leadership, not necessarily a 
recruiting tool, is there a number--do we track how many 
accessions we get from JRTOC programs?
    And I know that in greater discussion about DOD budgets one 
of the things that's potentially on the chopping block are 
JROTC programs. Is there a concern amongst the recruiting 
community if we start cutting JROTC and what that might to do 
to the recruiting pipeline?
    Ms. Penrod. Dr. Heck, you are absolutely correct. Junior--
JROTC is an assistantship program and not a recruiting program. 
There are 3,400 units currently in JROTC. The services are 
struggling with their budgets to maintain those units. And they 
do understand the citizenship aspect of those programs.
    We do not collect or maintain data on the number of 
individuals that would be encouraged by participating in junior 
ROTC that come into the military.
    Dr. Heck. I would just throw out there that might be a 
number that is worth trying to track to see whether--because I 
think that may help actually make an argument to continue JRTOC 
as a funded program if we can show that we are getting a fair 
number of accessions from them participating in those programs.
    Next question is as we all see that--we are seeing that 
decreased propensity to assume a military lifestyle, and we are 
certainly seeing a decrease in the number of folks that are 
either academically or physically and medically qualified to 
come into the service.
    You know, over history we have had changes in entry-level 
requirements to try to meet the demands. Sometimes those 
haven't always worked to the benefit of the services. Curious 
as to whether or not--I know it is still early because of the 
current changes in the market--but whether or not there is any 
consideration being given to changing accession requirements in 
order to meet the mission.
    Ms. Penrod. Dr. Heck, again, All-Volunteer Force is in the 
fifth decade. And even in times of difficult recruiting we have 
never lowered the standard of 90 percent high school diploma 
graduates or 60 percent in categories I through IIIA. It is 
very important that we bring in a quality force to maintain our 
readiness and the requirements of the services.
    Dr. Heck. I am going to run out of time soon. I got a list 
of questions. The other one I want to ask is how are we doing 
on getting access to the high schools? Are we seeing continued 
problems with getting access in certain communities or certain 
areas? Are we getting access to our potential recruits?
    Ms. Penrod. We have outstanding access. We are not seeing 
problems at this time.
    Dr. Heck. Since I have some time left, I am going to change 
to Major General Seamands. I will let you off the hook, Ms. 
Penrod.
    With the issue that we are seeing in meeting the Guard and 
Reserve recruitment missions, what steps are being taken to try 
to convince those that are separating from Active Duty to 
continue their service in either the COMPO [Component] 2 or 3?
    General Seamands. We have developed a great partnership 
with the Reserve and the Guard and work hand in hand with them 
as we identify and downsize the armed--the Active Component. If 
you were to take a look at the Active Component to Reserve 
Component transition the last couple years, we have exceeded 
157 percent 2 years ago and we have raised the standard or the 
goal for that across the board.
    My counterparts in the Guard and the Reserve understand how 
our--what our process is. One of the things we have done is 
with the Reserve recruiters we have moved their engagement with 
the Active force to the left so they are engaging them earlier. 
So it becomes part of their thought process about getting out, 
going to Reserves and Guard.
    We talk about soldier for life where you continue to be a 
soldier after you leave the service. We don't like using the 
word separation of service. It is really a transition whether 
you go to civilian or go into the Reserve Component, but we are 
encouraging that across the board from the Chief of Staff of 
the Army all the way down.
    Dr. Heck. Great. Thank you very much. Thanks, Mr. Chair. 
Yield back.
    Mr. Wilson. Thank you, Chairman Heck. We would proceed to 
Congresswoman Niki Tsongas. She has had to depart for a vote. 
And so we will now go to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman. And Congressman Heck 
asked a lot of my questions. Access to ROTC and the--I would be 
interested in the number of people who are in ROTC and enlist 
in the military and maybe the average duration because I think 
that is an extremely valuable program.
    I guess I will move to a different question. Maybe you can 
answer this. The issue of dwell time. And when I first got to 
Congress, one of the goals of the leadership at the DOD was to 
increase the dwell time because they felt like that was having 
a tremendous impact not only on the retention of people but on 
the ability to bring new people in, especially if it wasn't 
somebody who was 18 but somebody who maybe was a little older 
than your traditional recruit.
    It seems to me that some of the policies with reducing the 
size of the force as we are engaged in more and more conflicts, 
granted some of them may be smaller, is inconsistent with 
increasing the amount of dwell time the men and women in 
uniform have.
    And I just wonder if each of you could speak to that issue 
of dwell time and the impact that it has on recruiting.
    General Seamands. I believe there is a direct correlation 
because--not only on recruiting, sir, but also on retention. I 
will take it for the record to get you the exact numbers. I 
believe we are about one to two right now in the Active 
Component force.
    Part of it is a math problem. So as the number of 
requirements to deploy goes down, the dwell time obviously goes 
up. However, if the number of deployments goes up, that will go 
in the opposite direction.
    It has been a concern of the past couple Chiefs of Staff 
that we get it for quality of life as well as for retention. So 
I will take that for the record and get you the exact number.
    [The information referred to can be found in the Appendix 
on page 107.]
    General Brilakis. Sir, as a commander of our recruiting 
forces, the issue of dwell is more, as General Seamands 
mentioned, more a career and retention issue.
    With respect to the Marine Corps, it is not necessarily the 
number of individuals in the service. It is the number of 
units. Because by and large, we redeploy as units.
    So there are some reductions based on the overall drawdown 
of my service and some of the other services as well that will 
affect dwell. But there is nothing really--with respect to what 
we are doing, there are some retention issues. But as our 
recruiting commander, I am not in a position to be able to 
comment.
    Mr. Scott. As we go forward, one of the other questions I 
have, has the average age of a recruit changed or has it stayed 
the same? Has the economy had an impact on people who are say 
25, 26 looking to get into the service more so than they have 
in the past?
    General Brilakis. With respect to the Marine Corps, about 
50 percent of our enlistees are coming out of high school. We 
have focused and have been focused for years on a high school 
market where we get good quality, highly propensed and 
motivated young Americans to come and be marines.
    Outside of--that other 50 percent then is what we call the 
grad market, or those that you--were once--at one point in time 
in high school and now are looking for an opportunity and a 
challenge. That age has increased a bit, not substantially. But 
I would have to take that for the record and get back to you on 
specifics.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mr. Scott. Thank you.
    General Grosso. Sir, the average of an Air Force recruit is 
about 20\1/2\ years of age. And if you look at the 10-year 
average it is 20, so it has slightly gone up in the last couple 
of years.
    Mr. Scott. I represent Robins Air Force Base and Moody. So 
if you are down there, please let me know.
    Admiral Andrews. Sir, for the Navy, the average age is 
about 19 years old, but we have seen a lot that are coming in 
due to the economy that we get them in a little older. And some 
have at least a high school diploma as well as from junior 
colleges.
    In reference to your question on dwell time, we are at this 
present time rolling out what is known as the Optimized Fleet 
Response Plan to create a better predictability. And I would be 
more than happy to take this back and get some data for you, 
sir, and take this one for the record.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mr. Scott. Thank you, ma'am. One last question for you, 
Admiral. Savannah State University. Are you from Georgia or did 
you just choose to go to school in that great State?
    Admiral Andrews. Sir, I am from the great State of Georgia.
    Mr. Scott. Yes, ma'am. I am too. Where? Are you from 
Savannah?
    Admiral Andrews. Near Hinesville, sir. Small town about 
maybe 45 minutes south of it.
    Mr. Scott. Yes, ma'am. I know right where it is. I am from 
Tifton.
    Admiral Andrews. Very well, sir.
    Mr. Scott. Thank you for your service.
    Admiral Andrews. Thank you, sir.
    Mr. Scott. Chairman, I yield the remainder of my time.
    Mr. Wilson. Thank you, Congressman Scott. And we now 
proceed to Congressman Dr. Brad Wenstrup of Ohio.
    Dr. Wenstrup. Thank you, Mr. Chairman. I was a pretty cheap 
recruit. In 1998, I just called 1-800-USA-ARMY and said I would 
like to join. It didn't take a whole lot of marketing there, 
and proud to have served.
    And when I was in Iraq, I had the opportunity to take three 
of our enlisted to the Al-Faw palace for a ceremony where I saw 
about 100 soldiers and marines being sworn in as U.S. citizens. 
It was a pretty moving event to see these people that would put 
the American flag on their sleeve and be willing to die for the 
country that they weren't even citizens of yet.
    And so I just need a little update if I can. Under current 
law, are foreign citizens able to join the U.S. military 
without, say, legal residence in the United States? These all 
had legal--the ones I worked with had legal residency in the 
United States and then joined the military. But can you join if 
you are from Canada, for example, and want to serve in our 
military?
    Ms. Penrod. Yes, Dr. Wenstrup, I can take that.
    If you are a legal resident, a Green Card holder, you are 
able to join the military.
    We also have a program called Military Accessions Vital to 
the National Interest, which are bringing in non-immigrants, 
which is our visa card holders. That program currently has 
1,500. It is a pilot program. So there isn't the ability to do 
that.
    But those are our two programs.
    Dr. Wenstrup. And when people do that, either as legal 
residents or in that program, does that fast-track them to U.S. 
citizenship?
    Ms. Penrod. Yes, sir. While we are in combat--or, I should 
say, war. It is fast-tracked from the day you enter; we begin 
working with the individual to process them for citizenship.
    Dr. Wenstrup. In peacetime, is it different?
    Ms. Penrod. It is different in peacetime.
    In peacetime, it is--you have the Green Card holders. And 
it takes about a year for them to work through citizenship.
    Dr. Wenstrup. So they still do it but it just takes a 
little bit longer?
    Ms. Penrod. Yes, sir.
    Dr. Wenstrup. Are many in the past 10 years, have many been 
taking advantage of that? And will that still be an opportunity 
for people?
    Ms. Penrod. We have provided citizenship to 92,000. And 
that is in--now that includes those already on Active Duty, 
those that come into the service, and some of our veterans.
    So it is about 92,000.
    Dr. Wenstrup. Okay.
    Thank you.
    I yield back.
    Mr. Wilson. Thank you very much. And we now proceed to 
Congressman Mike Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman, for inviting me to 
this important hearing today on the current and future 
recruiting challenges of our armed services.
    As an Army and as a Marine Corps combat veteran, I am proud 
of the extraordinary current level of talent in the armed 
services that has developed under the all-volunteer military 
that we have today.
    However, I am worried that the future pool of recruits may 
not be able to maintain the elite standards that we have 
established. Factors such as an improving economy, cultural 
changes, and how a generation views military service, or when 
our Nation is engaged in conflicts that, quite frankly, may 
lack popular support, all these factors can contribute to the 
number of qualified applicants applying to be in our military.
    One of the more distressing issues that has been brought up 
here today is the shrinking pool of eligible enlistees. Less 
than 30 percent of eligible 17- to 25-year-olds qualify for 
military service, according to 2009 mission readiness study. 
Although the force is shrinking, as you move from a wartime 
posture, as members of this committee, as the HASC [House Armed 
Services Committee] committee----
    [Laughter.]
    Mr. Coffman [continuing]. And for the members of this 
subcommittee, I think we must always plan to have the deepest 
pool of eligible and qualified recruits possible to ensure we 
are ready to meet all and future challenges.
    Therefore, the question we have to ask is how to maintain 
standards while choosing from a decreasing pool of recruits. Of 
course, one answer is to widen the pool of potential recruits.
    For this reason, I introduced legislation that would widen 
the enlistment statute, section 504 of the U.S. Code, to allow 
not only natural born citizens and legal permanent residents to 
enlist, but also temporary visa holders and individuals 
approved under the Deferred Action Childhood Arrivals or DACA 
program, which is administered by DHS [Department of Homeland 
Security].
    Including this group of potential applicants will broaden 
our enlistment pool in preparation for any future engagements, 
help recruiters maintain high standards, allow the processing 
of fewer waiver requests, and minimize the need for bonuses and 
other financial incentives for enlistment. I worked closely 
with experts in the field of immigration and military law to 
develop a proposal that works both as an immigration and as a 
military enlistment measure.
    At this time, I would like to ask unanimous consent to 
submit a letter written by one such expert, Retired Lieutenant 
Colonel Margaret Stock, into the record, Mr. Chairman.
    Mr. Wilson. Yes.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Coffman. This paper details the reasons why the current 
enlistment statute is flawed and why H.R. 435 provides the best 
remedy. Again, Mr. Chairman, thank you for allowing me to be 
here today.
    Ms. Penrod, on a related question, prior to the enactment 
of the current consolidated enlistment statute, section 504, in 
2006, there were no statutory limitations on wartime 
recruitment of individuals regardless of immigration status.
    In 2006, the Pentagon asked Congress to limit enlistment of 
persons without Green Cards. So today, a person who is not a 
U.S. national, a Green Card holder, cannot enlist unless he or 
she is quote-unquote--``vital to the national interest.''
    Why was the statute amended in 2006 when the effect would 
be to limit the military manpower pool in wartime?
    Have there been any internal discussions to alter the 
current statute by implementing the changes sought by H.R. 435?
    Ms. Penrod. Congressman, I am not aware of why the change. 
I would need to get back to you on that particular issue.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Penrod. Although the Department's policy is not to 
comment on pending legislation, I will say that the Department 
of Defense has long supported the DREAM Act [Development, 
Relief, and Education for Alien Minors] and its tenets, which 
would provide a path of citizenship through military service 
for undocumented aliens who enter the country before age 16.
    We do believe it would--it is important to expand the pool 
of eligible youth and the--one issue that would be problematic 
is if the Department were asked to determine immigration status 
of the individual.
    But we do support expanding the pool.
    Mr. Coffman. Okay.
    What is DOD's policy or regulation with regard to the 
enlistment of American citizens or legal immigrants who have 
family members who are not authorized to be in the United 
States?
    Ms. Penrod. Well, the Department currently does not have a 
policy on undocumented family members. That issue has been 
brought to our attention, when the Department of Homeland 
Security standardized the parole-in-place policy. Because of 
that, we have formed a working group of the services. We are 
working across agencies with the Department of Homeland 
Security to look at what are some of the issues with regard to 
that population.
    For example, security clearances, obtaining ID cards and as 
we work through that process, we will be more than happy to 
come over here and report on that status.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Congressman Coffman.
    And we now proceed to Congresswoman Niki Tsongas of 
Massachusetts.
    Ms. Tsongas. Thank you all for being here today. We know 
what challenges you confront in such a fiscally constrained 
environment and so we appreciate your coming here to talk about 
how we recruit the best and brightest going forward.
    I wanted to bring up an issue that is particularly evident 
in my home State of Massachusetts. Massachusetts is home to two 
remarkable installations, one Air Force and one Army, that are 
developing some of the premier technical advances in some of 
the military's most complex endeavors. Hanscom Air Force Base 
is known as the birthplace of modern radar and airspace 
management and continues to be credited with developing 
programs with great technological achievement.
    And Natick Soldier Systems is delivering incredible 
lifesaving capabilities to our soldiers. During a recent visit 
to Natick, General Odierno, who we were so glad to have come to 
Massachusetts, stated, quote--``The work they do at Natick is 
critical for our future. These are the kinds of technologies 
that we need.''
    But I have heard concerning stories from each of these 
installations about how sequestration, furloughs, hiring 
freezes, program delays, and budget cuts, including pay cuts, 
have made it more difficult for them to retain and recruit the 
highly specialized personnel needed to fulfill this important 
work.
    And I am also very troubled by the message sent by the 
reduction in research, development, test, and evaluation 
funding that is part of the omnibus package moving through 
Congress.
    We are now experiencing the steepest cut, percentage cut in 
research and development funding seen in any economic downturn 
since the end of World War II, at a time when our challenges 
are becoming ever more complex.
    So as a result, the private sector is becoming the primary 
choice for highly skilled personnel at an alarming rate, 
particularly when we look at the losses within our defense 
labs. I have worried that this talent drain, both in our 
uniformed and civilian ranks, will compromise our ability to 
successfully achieve our national security objectives in the 
future.
    We know that we will always confront threats from 
increasingly capable adversaries and our military will 
constantly need to execute future missions with even greater 
agility and precision despite fewer resources. But it is going 
to require an investment in military innovation and the 
brainpower needed for us to, despite these challenges, keep the 
technological edge.
    So my question is, I would like to hear from all of you if 
possible.
    I would like to hear more about what the services are doing 
to recruit the skilled workforce you need, but also to retain 
the highly skilled civilian workforce that plays such a key 
role in these technological advances that are taking place at 
so many of our defense labs.
    And I don't know if you would like to begin speaking on 
behalf of the Defense Department.
    Ms. Penrod. Thank you, ma'am.
    I am not aware of the particular issues at Hanscom, other 
locations. We are aware that with the furloughs and the pay 
cuts that we need to keep our eye on the impacts, especially to 
the civilian workforce. But also to our military and retention. 
So we are providing oversight; we are watching that and we 
provide that information up through our leadership when we see 
signs that we are starting to have difficulty.
    Ms. Tsongas. General.
    General Seamands. Ma'am, for the Army, we have been able to 
maintain the right number of quality. But as we look at some of 
our growth areas, like cyber, that is an increasing challenge. 
Our recruiters are going out there in high schools and going 
after STEM [science, technology, engineering, math], the 
scientific technology and math, not only for our soldiers but 
also for our officers at places like West Point and ROTC, where 
we have driven the number of STEM degrees up in both cases, 
because we recognize that the increased requirement for 
technical abilities in the future.
    In terms of the civilian workforce, ma'am, that is a little 
bit outside of my purview. But I will tell you within my 
section, having them, the civilians' work furloughed did have 
an impact on our personnel policy, because they work there and 
oftentimes it is a one-deep person position. So we need to work 
through that in the future.
    Ms. Tsongas. How do you calibrate the need between the 
civilian side and the military side?
    How do the services deal with that as well?
    I mean, since you need both?
    General Seamands. Part of it is in the force structure that 
is designed, which calls for either military or civilian; in 
some cases, civilians are on the documents in order to provide 
continuity and depth in areas, whereas the military tend to 
move around a little bit more.
    General Brilakis. Congresswoman, thank you for your 
question.
    With respect to civilians overall policies, beyond the 
scope of my responsibilities; however, I do have civilians 
within the recruiting command.
    And I think part of our challenges on retaining good 
quality, high-performing civilians is the fact that for years, 
for a number of years, they received no pay raises.
    They were the butt of particular jokes, and it is just 
quite frankly, an issue of respect and how we look at the 
civilian workforce and how we treat them.
    You know, there are challenges with respect to resources, 
et cetera, and I understand that. But overall, we can look in 
the mirror and see where some of the challenges are in 
retaining some of our really good civilians.
    They are an incredibly committed, patriotic group of 
individuals, but we have challenged them, I think, in the last 
few years with respect to them staying.
    With respect to attaining high-quality personnel, the 
Marine Corps tends to--you know, my focus is on selling the 
Marine Corps, and not specific jobs.
    We have requirements; we look for good quality people. Our 
officer-recruiting focuses and understands that we are 
competing with corporate America and the other military 
services, and that is a high bar for us to pass over.
    And so we use just a broad range of techniques and efforts 
to make sure that we are attracting high-quality, talented, and 
enthusiastic individuals to take up the challenge to become 
marines.
    Admiral Andrews. Congresswoman, thank you so much for your 
question.
    As far as for high quality, the Navy also looks into the 
STEM program, making sure that we can have those high, 
technical science, technology, engineering, and math.
    We go after those because we know that those are the ones 
that we will need to take our Navy into the next century.
    As far as with our civilians, I will take that one for the 
record. I can't comment on that. But I would like to say about 
our civilian sailors, is that that certainly was missed during 
the furlough. You can tell that that was a big miss.
    [The information referred to can be found in the Appendix 
beginning on page 108.]
    Admiral Andrews. We work closely together, hand in hand. We 
work as a team. And we want to continue to do that, and we also 
know that the furlough certainly set that back. It only brings 
about working much more with the military and increasing their 
hours as well.
    And for the Hanscom, I am not familiar with that, as well, 
ma'am.
    Ms. Tsongas. It is more the broader issue that Hanscom and 
Navy raised--the need for these qualified personnel in general.
    Yes.
    Admiral Andrews. Thank you, ma'am.
    Ms. Tsongas. Yes.
    General Grosso. Ma'am, strengthening the public's awareness 
of STEM in association with the Air Force is an enduring 
priority in our marketing and advertising strategy on the 
military side.
    And we have actually been very successful, on both the 
officer and the enlisted side, recruiting the STEM talent that 
we need to fill the requirements that are associated with that.
    The civilian side is a concern to us as well, and it is a 
difficult challenge, especially when you look--as the size of 
the civilian force gets smaller, and the rules that govern how 
you handle reducing the size of the workforce, what you find is 
that your young people--and we value longevity, and so what 
happens, is your youngest person is typically that one that is 
let go, I would say. I think that is tremendously challenging.
    And I will take for the record, to get you some--I am not 
familiar with all the things that we are doing to try to bring 
civilians into--in particularly with STEM, and I know we have 
issues at Robins, I was not familiar with concerns at Hanscom.
    But I will take that for the record.
    Ms. Tsongas. I would actually appreciate if all of you 
would take it for the record, because I think it is an 
important issue.
    [The information referred to can be found in the Appendix 
beginning on page 107.]
    So thank you and I yield back, I appreciate your giving me 
additional time.
    Mr. Wilson. Very important, and thank you, Congresswoman 
Tsongas.
    We now proceed to Congressman Jeff Denham of California.
    Mr. Denham. Thank you, Mr. Chairman.
    I have seen, first hand, some of the challenges with 
recruitment and its impact on military readiness. I was one of 
those 17-year-olds that signed up for the military with my 
local recruiter when I was in high school.
    And also want to see the opportunity for those men and 
women that came here as kids, through no fault of their own, 
that have gone to school, side by side with us, that have gone 
to ROTC, that have graduated from our education system also 
have those same opportunities.
    So, I am pleased today to offer my bill, The ENLIST Act, as 
a partial solution to the recruitment challenges of the future.
    I look forward to working with members of this committee as 
well as Chairman McKeon, as well as our expert witnesses that 
are here today, to expand the enlistment eligible population to 
include undocumented, American-grown individuals who have been 
brought into this country as children and otherwise are 
eligible to serve in our U.S. Armed Forces.
    As a nation, we have never made citizenship a requirement 
for service in the Armed Forces. Since the founding of our 
Nation, non-citizens have been a part of our military and 
Congress has seen fit to make military service a way for 
patriotic individuals, from other countries, to show their 
allegiance to our flag and become U.S. citizens.
    More than 660,000 military veterans have become citizens 
through naturalization from 1862 to 2000. These men and women 
have proven they are prepared to make the ultimate sacrifice 
for their adopted country.
    For the many thousands of young, undocumented immigrants 
who graduate from our public and private high schools each 
year, military service would offer an avenue for them to serve 
the United States and earn a legal status in the country they 
love.
    As someone who served, I remember the pride that I had 
wearing the uniform, and cannot think of a better way for these 
young people to earn the right to fully share in the rights and 
freedoms of America.
    Couple of questions for our witnesses today. Heard on your 
testimony that there are men and women that do gain 
citizenship, some are naturalized.
    Is there any difference in service and capability and 
dedication between somebody who is a naturalized service member 
versus an American-born service member?
    Ms. Penrod. Thank you, sir, for your support of our 
military and recruiting.
    We find that individuals we bring into the military from 
all the areas of the United States, whether they are legal 
immigrants, citizens, perform exceptionally well.
    The quality is very high in the military and we do not 
distinguish between whether you are a legal immigrant or a 
legal non-immigrant and whether or not you are citizen, as far 
as, once you are in the military, we do not track that.
    However, I can say that our records show that all perform 
at a very high quality.
    Mr. Denham. Thank you. Others care to comment?
    The second question. If either my bill or Congressman 
Coffman's bill were enacted into law, what efforts would the 
Department or each service branch have to undertake to ensure 
that these individuals meet the eligibility requirements?
    Ms. Penrod. Well, sir, as I stated earlier, it is 
Department policy not to comment on pending legislation.
    I can state that we have always supported the DREAM Act, 
which would provide a path of citizenship for our undocumented 
individuals that came into country before age 16.
    We do believe it would be problematic if legislation were 
passed and the Department were required to determine what the 
immigration status is.
    But we would follow the law and whatever decision or 
legislation is passed, then we would implement that.
    Mr. Denham. So under the situation where you have got the 
Deferred Action, or the DACA, the status would be defined. They 
would be undocumented but would be able to legally be here, and 
now under this legislation, be legally able to serve in the 
military?
    Does that appear to have any problems in eligibility----
    Ms. Penrod. If a law is passed or changed where a group of 
individuals are now legally allowed to come in the military, 
then they would be like any other individual that today can 
come into a recruiting office and request to come in the 
military.
    Mr. Denham. I yield back the balance of my time.
    Thank you.
    Mr. Wilson. And thank you very much, Congressman Denham, 
thank you for being here and your promotion of your efforts.
    And Mrs. Davis, would you like to make a concluding?
    Mrs. Davis. I just had one question, because I think it is 
fair to bring it up. During the discussions that we had around 
sexual assault, I think, it is probably fair to say that the 
military got a black eye during those discussions.
    And a number of witnesses suggested, in addition to the 
many, many reasons for that, including what civil society looks 
like.
    But I suggested that perhaps too many waivers had been 
given during the time that our operational tempo was very high.
    Could you comment on that? And what you think that means 
today? And how we are going about looking at that situation.
    Ms. Penrod. Yes, Congresswoman Davis, I can tell you that 
our policy is we do not allow waivers of any individual 
convicted of sexual assault, sexual predators--they are not 
allowed to come in the military.
    Mrs. Davis. I think part of what was suggested is that 
records were such that there might have been some areas that 
were questionable but they didn't pick them up or it wasn't 
stringent enough.
    Anybody want to?
    General Brilakis. Ma'am, during that time, when the 
question came up, we did, as Ms. Penrod alluded to, we got 
through and checked every enlistment and every marine. Every 
marine I had on recruiting duty and I had none that had a 
previous history or conviction of sexual assault, physical 
abuse, et cetera.
    And we have now made that a service standard and part of 
our accessions effort and policy to ensure that no individual 
who has a proclivity or history of sexual violence, sexual 
assault, et cetera, is even considered for accession in the 
Marine Corps.
    Admiral Andrews. For the Navy, ma'am, with the recruiters, 
we also went back and made sure that we can check. And we 
didn't have any that was of that--and any nature or of 
convictions of any. And we continue to train.
    I think we better understand, we have momentum, we are 
having intrusive leadership, we are out there, we are training, 
we are talking and this is all the way from the recruits coming 
in the door, within 72 hours they know as well as throughout 
the Navy, ma'am.
    General Grosso. And, ma'am, I have the data for fiscal year 
2013, 8 percent of our recruits came in with a waiver and 98 
percent of those waivers were for medical. So very few airmen 
have come in with a conduct waiver, 61. And I can get you the 
exact details on those 61, ma'am.
    Mrs. Davis. Thank you.
    [The information referred to was not available at the time 
of printing.]
    General Seamands. Ma'am, from the Army, if you go back the 
last couple years, we typically brought between 11 percent and 
12 percent people in with waivers. And, like the Air Force, the 
vast majority were for medical reasons.
    I will acknowledge, in the years we were doing Grow the 
Army, there are probably some people who wouldn't be, that 
certainly wouldn't be admitted today into the force. And, thus, 
the small number of waivers for misconduct. Each one of those 
is investigated as they go.
    In terms of sexual assault, ma'am, I would offer that from 
the Chief of Staff of the Army all the way down to recruiters, 
they understand what is at stake. They understand it is a 
matter of respect. It is a matter of leadership and character. 
And every one of our recruiters is taught what they can and 
cannot do. We have a buddy system with the recruiters to make 
sure they understand what the rules are, what their engagement 
is with the citizens to make sure that no lines are crossed.
    Mr. Wilson. Thank you very much, Mrs. Davis.
    Chairman Heck.
    Dr. Heck. Thanks, Mr. Chair. I appreciate your indulgence 
in allowing me a follow-up. Because the point that was just 
made about waivers, I think, goes back to the question that I 
originally asked Ms. Penrod.
    While the accession qualifications may not have dropped 
below the 90 percent threshold, the ability to issue conduct 
waivers is something that is fungible and fluctuates. I think 
that as one of my concerns, is that if we are getting to a 
point where we are having difficulty meeting accession 
requirements, if all of a sudden, we start to see a growth in 
the number of waivers--not necessarily medical, but in conduct 
waivers. And so, I just wanted to get that out there as 
something that I think is--that we are going to need to keep 
track of and report back.
    Thank you, Mr. Chair.
    Mr. Wilson. Thank you, Chairman Heck. And as we conclude, I 
think it is very appropriate that Mrs. Davis brought it up 
about criminal sexual assault. Because to me, it always was 
most insulting because we are to, in the military, protect each 
other's back. And I look at it as a family.
    And, again, I want to thank you for providing opportunities 
for American families. Our family, this weekend, is going to be 
participating--our youngest son, Hunter, just concluded his 
service, Army National Guard Engineer, in Afghanistan. And for 
American families, this is just so meaningful. We have a 2-day 
conference of briefings to the members, to their family 
members, explaining what the different opportunities there are 
for future service, if there are any problems which can be 
addressed. And I truly have seen our military advance to be so 
family-friendly with opportunity.
    Thank you. We are adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 16, 2014

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 16, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6963.001
    
    [GRAPHIC] [TIFF OMITTED] T6963.002
    
    [GRAPHIC] [TIFF OMITTED] T6963.003
    
    [GRAPHIC] [TIFF OMITTED] T6963.004
    
    [GRAPHIC] [TIFF OMITTED] T6963.005
    
    [GRAPHIC] [TIFF OMITTED] T6963.006
    
    [GRAPHIC] [TIFF OMITTED] T6963.007
    
    [GRAPHIC] [TIFF OMITTED] T6963.008
    
    [GRAPHIC] [TIFF OMITTED] T6963.009
    
    [GRAPHIC] [TIFF OMITTED] T6963.010
    
    [GRAPHIC] [TIFF OMITTED] T6963.011
    
    [GRAPHIC] [TIFF OMITTED] T6963.012
    
    [GRAPHIC] [TIFF OMITTED] T6963.013
    
    [GRAPHIC] [TIFF OMITTED] T6963.014
    
    [GRAPHIC] [TIFF OMITTED] T6963.015
    
    [GRAPHIC] [TIFF OMITTED] T6963.016
    
    [GRAPHIC] [TIFF OMITTED] T6963.017
    
    [GRAPHIC] [TIFF OMITTED] T6963.018
    
    [GRAPHIC] [TIFF OMITTED] T6963.019
    
    [GRAPHIC] [TIFF OMITTED] T6963.020
    
    [GRAPHIC] [TIFF OMITTED] T6963.021
    
    [GRAPHIC] [TIFF OMITTED] T6963.022
    
    [GRAPHIC] [TIFF OMITTED] T6963.023
    
    [GRAPHIC] [TIFF OMITTED] T6963.024
    
    [GRAPHIC] [TIFF OMITTED] T6963.025
    
    [GRAPHIC] [TIFF OMITTED] T6963.266
    
    [GRAPHIC] [TIFF OMITTED] T6963.027
    
    [GRAPHIC] [TIFF OMITTED] T6963.028
    
    [GRAPHIC] [TIFF OMITTED] T6963.029
    
    [GRAPHIC] [TIFF OMITTED] T6963.030
    
    [GRAPHIC] [TIFF OMITTED] T6963.031
    
    [GRAPHIC] [TIFF OMITTED] T6963.032
    
    [GRAPHIC] [TIFF OMITTED] T6963.033
    
    [GRAPHIC] [TIFF OMITTED] T6963.034
    
    [GRAPHIC] [TIFF OMITTED] T6963.035
    
    [GRAPHIC] [TIFF OMITTED] T6963.036
    
    [GRAPHIC] [TIFF OMITTED] T6963.037
    
    [GRAPHIC] [TIFF OMITTED] T6963.038
    
    [GRAPHIC] [TIFF OMITTED] T6963.039
    
    [GRAPHIC] [TIFF OMITTED] T6963.040
    
    [GRAPHIC] [TIFF OMITTED] T6963.041
    
    [GRAPHIC] [TIFF OMITTED] T6963.042
    
    [GRAPHIC] [TIFF OMITTED] T6963.043
    
    [GRAPHIC] [TIFF OMITTED] T6963.044
    
    [GRAPHIC] [TIFF OMITTED] T6963.045
    
    [GRAPHIC] [TIFF OMITTED] T6963.046
    
    [GRAPHIC] [TIFF OMITTED] T6963.047
    
    [GRAPHIC] [TIFF OMITTED] T6963.048
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 16, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6963.049
    
    [GRAPHIC] [TIFF OMITTED] T6963.050
    
    [GRAPHIC] [TIFF OMITTED] T6963.051
    
    [GRAPHIC] [TIFF OMITTED] T6963.052
    
    [GRAPHIC] [TIFF OMITTED] T6963.053
    
    [GRAPHIC] [TIFF OMITTED] T6963.054
    
    [GRAPHIC] [TIFF OMITTED] T6963.055
    
    [GRAPHIC] [TIFF OMITTED] T6963.056
    
    [GRAPHIC] [TIFF OMITTED] T6963.057
    
    [GRAPHIC] [TIFF OMITTED] T6963.058
    
    [GRAPHIC] [TIFF OMITTED] T6963.059
    
    [GRAPHIC] [TIFF OMITTED] T6963.060
    
    [GRAPHIC] [TIFF OMITTED] T6963.061
    
    [GRAPHIC] [TIFF OMITTED] T6963.062
    
    [GRAPHIC] [TIFF OMITTED] T6963.063
    
    [GRAPHIC] [TIFF OMITTED] T6963.064
    
    [GRAPHIC] [TIFF OMITTED] T6963.065
    
    [GRAPHIC] [TIFF OMITTED] T6963.066
    
    [GRAPHIC] [TIFF OMITTED] T6963.067
    
    [GRAPHIC] [TIFF OMITTED] T6963.068
    
    [GRAPHIC] [TIFF OMITTED] T6963.069
    
    [GRAPHIC] [TIFF OMITTED] T6963.070
    
    [GRAPHIC] [TIFF OMITTED] T6963.071
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 16, 2014

=======================================================================

      
      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT

    General Seamands. The Army's current active component dwell ratio 
is 1:2.73 (deployed time:home station time). Our goal is 1:2, 1 year 
deployed, 2 years at home. We are currently exceeding our dwell ratio 
goal which is a positive factor in our Recruiting and Retention 
efforts.   [See page 15.]
    General Brilakis. The Marine Corps traditionally recruits 50% of 
enlistees from the 17-18 year old high school market. The remaining 50% 
of enlistees have already graduated high school, commonly referred to 
as ``The Grad Market.'' Over the past five years from FY09-FY13 the 
average enlistee from ``The Grad Market'' has remained consistent at 23 
years old.   [See page 15.]
    Admiral Andrews. Dwell time has no direct impact on recruiting. A 
typical recruit applicant is not concerned about, or even aware of 
dwell time, and chooses to enter the Navy with the expectation of 
serving at sea.   [See page 16.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Penrod. Science, technology, engineering, and mathematics 
(STEM) underpin DOD's ability to defend the Nation. Developing a highly 
competent STEM workforce requires partnerships among government, 
industry and academia. Emerging mission requirements pose STEM 
workforce challenges for DOD. However, the Department is committed to 
the development of a world-class STEM talent pool and workforce with 
the creativity and agility to meet national defense needs. The 
Department has a number of initiatives underway to attract, develop, 
and retain a highly proficient, agile, and effective STEM workforce. 
DOD STEM workplace efforts are based on development of programs to 
strengthen and broaden the STEM talent pool across the education 
continuum, and to leverage recognized best practices to increase the 
effectiveness of current STEM hiring practices and procedures. 
Initiatives include:
    <bullet>  Multiple programs offering internship opportunities from 
high school through post-graduate school. These programs provide 
students meaningful training and career development opportunities and 
potential candidates for STEM positions in many different fields. 
Programs include, but are not limited to, the Science, Mathematics, and 
Research for Transformation (SMART) Scholarship Program, DOD 
Centralized Apprenticeship Program (DCAP), Student Training and 
Academic Recruitment (STAR) Program and Pathways Programs.
    <bullet>  The DOD Science and Technology Reinvention Laboratory 
Demonstration projects are using numerous human resources flexibilities 
to attract, recruit and retain highly skilled workforce by providing 
competitive salary offers through the use of pay banding, and rewarding 
high performers through contribution-based and pay-for-performance 
programs. Most significantly, the demonstration projects have access to 
several direct hire authorities to recruit science and engineering 
candidates, including qualified veterans, at both the undergraduate and 
advanced degree levels.
    To retain its STEM talent, the Department seeks to ensure a 
challenging, rewarding, and inclusive work environment. That includes 
fostering creative and innovative leadership to motivate and engage the 
workforce, promoting opportunities for education, training, and career 
growth, and leveraging STEM workforce expertise to deliver innovative 
solutions for the Nation's current and future defense challenges.   
[See page 22.]
    General Seamands. The U.S. Army Corps of Engineers (USACE) and the 
Department of Army Science and Technology Reinvention Laboratories 
(STRL) participate in STEM Outreach (K-12 and Universities/Colleges) to 
excite and engage diverse students to consider careers in STEM and to 
influence them to consider the U.S. Army as an employer of choice. They 
each have a robust Intern Program and support undergraduate and 
graduate students pursuing degrees in STEM disciplines.
    Recruiting the right talent in STEM fields to meet current 
challenges and projected workload is critical to the accomplishment of 
mission requirements. However, it has become more difficult to fill 
STEM jobs due to a decreasing supply of available candidates and 
competition with other federal agencies and the private sector for the 
same talent pool.
    To retain critical STEM skilled employees, we encourage employees 
to partner with mentors and to explore training and certification 
opportunities comparable to those of their career-military 
counterparts. We ensure our workforce understands the value of 
obtaining and maintaining licenses and certifications, which improves 
their professional competence and increases individual and 
organizational credibility.
    Fostering the development of our employees and providing the 
opportunity to manage diverse projects allows our STEM employees to 
remain fully competitive with industry in retaining the highest-
qualified talent, and ensure that our workforce can effectively and 
expeditiously meet emerging challenges.
    We utilize incentives, quality of life programs, wellness programs, 
work/life balance, employee engagement, and telework to sustain our 
STEM employees. In addition, we work to ensure that STEM employees' 
contributions/achievements are recognized with monetary and non-
monetary awards.   [See page 21.]
    General Brilakis. The Marine Corps recognizes the importance of 
understanding the functional requirements of each position and the 
vital role they play in accomplishing the mission of the command. In 
order to ensure our commands are planning to acquire, develop, and 
retain the personnel necessary to fill each position, the Marine Corps 
has formalized two strategic workforce programs that ensure commands 
and functional leaders are planning for the needs of their future 
workforce. The first is the Command-Level Strategic Workforce Planning 
Process, which requires commands to conduct a position-by-position 
review, determine the needs and trends associated with those positions 
over the next five years and develop a strategy to acquire, develop, 
and retain the talent necessary to ensure mission success. The second 
is the USMC Community of Interest program that establishes senior 
leaders in each functional area of the workforce (i.e. Intelligence, 
Information Technology, etc.) and has them focus on the technical needs 
required to develop and sustain that talent/capability within the 
Marine Corps. Between these two initiatives, the Marine Corps will be 
able to adapt to the changing landscape and proactively plan to have 
the talent needed in the future.   [See page 22.]
    Admiral Andrews. Department of the Navy (DoN) manages nearly 
195,000 civilians with over 61,000 scientists and engineers conducting 
research, development, acquisition, maintenance, test and evaluation to 
deliver and sustain affordable warfighting capabilities to Sailors and 
Marines.
    DoN manages and participates in several programs to sustain, grow, 
retain, and recruit the future civilian workforce. The Science, 
Mathematics & Research for Transformation (SMART) and Naval Acquisition 
Development Program (NADP) are two examples of these programs. The 
SMART program is a scholarship for service program where the Department 
of Defense (DOD) provides scholarship funds for undergraduate and 
graduate students in science, technology, engineering, and mathematics 
(STEM) fields at over 200 universities and colleges including 
Historically Black Colleges and Universities (HBCUs). While at college, 
SMART students work in the DOD Labs and facilities under mentorship, 
gaining valuable experience prior to fulltime employment with DOD. The 
NADP program has been managed by DoN for over 20 years. NADP is a 
centrally funded full time two-to-four year training program executed 
by the Director, Career Acquisition Management (DACM) via the Naval 
Acquisition Career Center (NACC). The objective of the program is to 
centrally hire, train, develop, and certify acquisition workforce 
personnel to replenish/sustain the Acquisition Workforce in nearly all 
career fields. Upon successful program completion, graduates are 
matched to a command. Over 8,000 personnel have graduated into the 
Acquisition Workforce since inception of the program.
    Because the development of the workforce is key to retention and 
key to meeting evolving National challenges, the Naval Innovative 
Science and Engineering (NISE) program authorized under Section 219 of 
the FY2009 National Defense Authorization Act for the Naval 
Laboratories and Centers, has been instrumental. This has been an 
important authority to expand the technical capabilities of this 
workforce through hands-on work as well as providing training and 
advance degrees. NISE efforts have provided breakthrough research and 
been responsible for the maturation and transition of technology to the 
warfighter and programs of record. NISE has encouraged cross-
organizational multi-disciplinary projects that include partnerships 
with academia and industry. DoN continues outreach initiatives and 
workforce focused programs for STEM by maximizing partnerships with 
other Federal, public, private and academic STEM efforts. Prime 
outreach goals include diversity and inclusion and support of Naval 
families.
    However, under sequestration and continuing resolution, DoN was 
forced to implement a hiring freeze of civilians for over nine months, 
from mid-January 2013 through October 2013. Starting in FY 2014, DoN 
has been deploying a hiring strategy considerate of budgets. The hiring 
freeze may impact long term S&T recruitment, so DoN continues to 
evaluate the possible impacts.   [See page 21.]
    General Grosso. Despite funding cuts, furlough, and sequestration, 
the Air Force Scientist and Engineering (S&E) career field has 
maintained a 92% or higher retention rate for its civilian S&E 
workforce. Over the last five years the S&E retention rate has been 
consistently stable at approximately 93%.
    We've been very successful recruiting civilians into the Air Force 
acquisition workforce, including those with STEM degrees. From FY09 
through FY13, we've grown our civilian S&E community by over 1,300, 
many in acquisition, including a 100% increase in Computer Science 
personnel, as well as significant increases in Electrical Engineers, 
Aerospace Engineers and General Engineers employed at each of our 
acquisition centers and their locations, including Hanscom AFB in 
Massachusetts.
    In part, our recruiting success reflects the unique opportunities 
the Air Force offers civilians to serve in careers where they can 
contribute to developing cutting edge technology and serving in and 
leading our acquisition and sustainment programs in a variety of 
technical and business career fields. The challenging nature of our 
civilian jobs and the opportunity for significant responsibility early 
in a career are especially appealing to the modern millennial 
generation. But to reach these candidates, first we have to inform them 
that there are civilian jobs in the Air Force!
    The Air Force acquisition community has undertaken an initiative to 
enhance civil service recruiting for the acquisition workforce, both 
STEM and non-STEM, through the branding of our major acquisition 
centers and development of enhanced recruiting web sites encompassing 
the entire Air Force acquisition community. We began this initiative at 
Hanscom AFB in 2008 in response to recruiting challenges there, and 
based on its success, were able to expand to the rest of our major 
acquisition locations using the Defense Acquisition Workforce 
Development Fund established by Congress in FY08. Our recruiting and 
branding initiative has transformed our ability to advertise and 
recruit nationwide. We have focused this initiative to the modern 
millennial generation of talented workers that are now entering the 
workforce. Our approach targets passive candidates, candidates with 
specific skills sets, and specific geographic locations. Active and 
passive candidates can quickly learn about Air Force acquisition 
organizations and work life, but also see what job opportunities are 
available. Social Media is a part of this generation's daily life; 
therefore we have a presence on Linked In, Facebook and Twitter using 
mobile supported versions of our web presence. This capability is 
supporting local recruiting efforts in order to enhance our ability to 
compete for the top talent in the marketplace and is designed to 
complement the Air Force Personnel Center's civilian recruiting 
efforts.
    The Defense Acquisition Workforce Development Fund established by 
FY08 NDAA Section 852 has also been invaluable in augmenting Air Force 
funding in order to extend our ability to offer incentives when needed 
as part of our civilian recruiting and retention efforts. A primary 
example of keen interest to candidates who have invested in a STEM 
degree is our ability to offer student loan repayment, as well as fully 
funded tuition assistance for new hires who wish to continue their 
education in an acquisition related field.
    We continue to pursue authorities and flexibilities that can build 
on our recruiting success, especially for STEM jobs. Draft legislation 
currently on the Hill, for example, would extend the direct hire 
authority currently available for recruiting graduates at the master's 
level for Lab Demo organizations to recent graduates at the bachelor's 
level being recruited into STEM professional career fields for Lab Demo 
organizations. Recent graduates will not wait 60-90 days for a firm 
offer. The ability of recruiters to make firm offers on campus for all 
STEM professional recent graduates at the bachelor's and master's level 
for acquisition/STEM professionals would significantly enhance STEM 
recruiting and help ensure our STEM workforce is viable for the future. 
  [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. COFFMAN

    Ms. Penrod. The change in 2006 was completed to provide consistency 
in statute for all the Services in line with existing DOD Policy. Prior 
to the National Defense Authorization Act for Fiscal Year 2006, Title 
10, United States Code, Sections 3253 and 8253, stated that to be 
eligible for enlistment in the Army or Air Force in time of peace, an 
individual must be an American citizen or lawfully admitted to the 
United States for permanent residence (Green Card). While there was no 
equivalent statute limiting enlistment in the Navy and Marine Corps, 
the same citizenship requirements were applied to those Services in 
policy.   [See page 18.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
